No.
In The

Supreme Olourt af il\2
Northekn Trust Corporation and Northern Trust Company,
Petitioners,
V.

Lindie L. Banks and Erica LeBlanc,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33,l(h), I certify that the document contains 6,367
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2,2019.

Ian Heath Gershengorn

